APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of Appeals Opinion
June 8, 2020 ............................................1A

Appendix B:

U.S. District Court Opinion and Order,
March 29, 2019 ..........................................28A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page1 of 27
APPENDIX A

19-1262-cv
Pablo Star Ltd. v. Welsh Gov’t

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

August Term, 2019
Argued: February 5, 2020

Decided: June 8, 2020

Docket No. 19-1262-cv

PABLO STAR LTD., PABLO STAR MEDIA LTD.,
Plaintiffs-Appellees,
— v. —
THE WELSH GOVERNMENT,
Defendant-Appellant,
GRACENOTE, DBA Tribune Media Service, PITTSBURGH POST-GAZETTE, E.W.
SCRIPPS, CO., COLORADO NEWS FEED, TRAVEL SQUIRE, RICHMOND TIMES DISPATCH,
MIAMI HERALD MEDIA CO., VISIT WALES, TRIBUNE CONTENT AGENCY, LLC,
JOURNAL MEDIA GROUP, INC., TREASURE COAST NEWSPAPERS, JOHN DOES 1-10,
Defendants.

B e f o r e:
POOLER, LYNCH, and PARK, Circuit Judges.

01A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page2 of 27

Defendant-Appellant the Welsh Government appeals the denial by the
United States District Court for the Southern District of New York (Oetken, J.) of
its motion to dismiss on the ground of sovereign immunity. It argues that the
commercial-activity exception of the Foreign Sovereign Immunities Act does not
apply to its conduct promoting Welsh culture and tourism in New York because
the promotion of tourism is an inherently governmental activity and because its
conduct did not have the requisite substantial contact with the United States to
trigger the exception under the Act. We disagree, and accordingly AFFIRM the
decision of the district court.

NATHANIEL KLEINMAN (Kevin McCulloch, on the brief), The
McCulloch Law Firm, PLLC, New York, N.Y., for
Plaintiffs-Appellees.
RICHARD J. OPARIL, Arnall Golden Gregory LLP, Washington,
D.C., for Defendant-Appellant.

GERARD E. LYNCH, Circuit Judge:
The Foreign Sovereign Immunities Act (“FSIA”) provides that “a foreign
state shall be immune from the jurisdiction of the courts of the United States and
of the States,” subject to several enumerated exceptions. 28 U.S.C. § 1604. The
exception at issue in this case is the “commercial activity” exception, specifically
its first clause, which states that “[a] foreign state shall not be immune from the
jurisdiction of the courts of the United States or of the States in any case . . . in

2

02A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page3 of 27

which the action is based upon a commercial activity carried on in the United
States by the foreign state.” Id. § 1605(a)(2). To trigger the exception, the
commercial activity must have “substantial contact with the United States.” Id.
§ 1603(e).
The United States District Court for the Southern District of New York (J.
Paul Oetken, J.) denied the Welsh Government’s motion to dismiss on the ground
of sovereign immunity, holding that the commercial-activity exception applies.
The Welsh Government challenges the district court’s conclusions on both prongs
of the relevant exception. First, it argues that its promotion in the United States of
tourism to Wales was not commercial, but rather governmental, in nature.
Second, it asserts that, even if its conduct was commercial, it did not have the
requisite substantial contact with the United States. As explained below, we find
that the Welsh Government did engage in commercial activity in publicizing
Wales-themed events in New York, and we further find that the Welsh
Government’s activity had substantial contact with the United States. We
therefore AFFIRM the district court’s denial of the Welsh Government’s motion.

3

03A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page4 of 27

BACKGROUND
The facts relating to the jurisdictional issue of sovereign immunity are
drawn from the record compiled by the district court on the Welsh Government’s
motion to dismiss, and are for the most part undisputed. The facts regarding the
merits of the claims are drawn from the complaint and are taken as true, though
we occasionally note instances in which the facts are in dispute.
This case concerns claims for copyright infringement brought by PlaintiffsAppellees Pablo Star Ltd. (“Pablo Star”) and Pablo Star Media Ltd.1 Pablo Star,
which is registered under the laws of Ireland and the United Kingdom, alleges
that it owns copyrights in two photographs of the Welsh poet Dylan Thomas and
his wife, Caitlin Macnamara. Thomas, who is famous for such works as “Do not
go gentle into that good night” and “A Child’s Christmas in Wales,” spent
considerable time in New York in the early 1950s, and died there in 1953. The

1

Plaintiff Pablo Star Media Ltd. was dissolved in 2018. The district court correctly
found that its dissolution “does nothing to rebut the standing of at least one
Plaintiff to proceed in this action,” which “is sufficient to satisfy Article III’s caseor-controversy requirement.” Pablo Star Ltd. v. Welsh Gov’t, 378 F. Supp. 3d 300,
314 (S.D.N.Y. 2019), quoting Rumsfeld v. Forum for Acad. & Inst’l Rights, Inc., 547
U.S. 47, 52 n.2 (2006). For clarity and simplicity, we use the term “Pablo Star” to
refer only to Pablo Star Ltd. in the remainder of this opinion.
4

04A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page5 of 27

first photograph, “Just Married,” pictured the couple after their wedding in 1937;
the second, “Penard,” shows them playing croquet.
Vernon Watkins took the two photographs. Upon Watkins’s death in 1967,
his widow, Gwen Watkins, inherited the copyrights in the photos. In August
2011, Gwen Watkins assigned the copyrights to Pablo Star. Pablo Star then
registered the copyrights with the United States Copyright Office, and was issued
certificates of registration for both works in 2012.2
The Welsh Government is a political subdivision of the United Kingdom.
The devolved Welsh Government has authority to promote the well-being of
Wales, including its culture, economic development, and tourism. See
Government of Wales Act 2006, c. 32, §§ 60-61. Under its statutory authority
pursuant to the Government of Wales Act, the Welsh Department of Economy,
Skills and Natural Resources is charged with promoting tourism to Wales.
After its formation in 2006, the Welsh Government began using Dylan
Thomas’s likeness, including the “Just Married” and “Penard” photographs, to

2

Pablo Star’s ownership of the copyrights is disputed. The Welsh Government
has contended that Jeff Towns of “Dylan’s Bookstore” acquired the rights to
exploit the copyrights from Gwen Watkins prior to the assignment to Pablo Star,
and that the Welsh Government has a license to use the photographs.
5

05A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page6 of 27

promote tourism to Wales. The allegedly infringing materials at issue in this case
include a map and brochure entitled “Dylan Thomas Walking Tour of Greenwich
Village, New York,” which displayed the “Just Married” photograph with a
copyright notice beneath stating “Copyright Jeff Towns/Dylan’s Bookstore.” The
walking tour was a collaboration of the Welsh Government and the Thomas
family and was run by New York Fun Tours, which charged $25 per ticket for the
tour. The Welsh Government also had a page on its website, wales.com, entitled
“Discovering the Welsh in America.” That page in turn contained a link to a PDF
copy of a booklet called “Welsh in America 2010," information about a display
exhibition that could be borrowed from the Welsh Government in New York at
no cost, and a link to New York Fun Tours’ web page regarding its Dylan
Thomas walking tours, which would be held on Sundays starting on March 6,
2011. The “Welsh in America” web page featured the “Just Married” photograph
with the “Copyright Jeff Towns” notation. All of this material was created before
Pablo Star’s copyright registration in “Just Married” and “Penard.”3
3

The complaint alleges that both photographs have been used by the Welsh
Government “as part of their advertising, tourism, and promotional campaign.”
Second Amended Complaint, ¶ 90. In contrast to the detailed information about
the use of the “Just Married” photo, however, there are no further details about
the alleged use of “Penard.”
6

06A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page7 of 27

In 2012, after Pablo Star had registered its copyrights in the two
photographs, it discovered that the Welsh Government was using the “Just
Married” photograph of Dylan Thomas without its permission. Pablo Star
notified the Welsh Government of the unauthorized use and demanded in
writing that it cease and desist from using the photograph. Pablo Star alleges
that, despite its assurance that it would comply, the Welsh Government
continued to use the photograph, including by providing copies to U.S. media
companies (the media defendants in the underlying action) for use in articles
about Dylan Thomas that promoted tourism to Wales.
In 2013, the Welsh Government developed a new tourism strategy and
published a three-year action plan. The strategy and action plan focused on
domestic tourism, but also encouraged tourism from Germany, Ireland, the
United States, and Canada. As part of its motion to dismiss, the Welsh
Government proffered an affidavit from Rob Holt, the Welsh Government’s
Deputy Director of Tourism Development and Major Events, attesting that the
strategy and action plan were developed in Wales and that the computer servers
for the Welsh Government’s work are maintained in the United Kingdom.

7

07A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page8 of 27

Pablo Star filed its initial complaint on February 18, 2015, alleging
copyright infringement by the Welsh Government. After several years of
procedural skirmishing not relevant here,4 the Welsh Government moved to
dismiss Pablo Star’s second amended complaint under Fed. R. Civ. P. 12(b)(1),
asserting sovereign immunity under the FSIA. On March 29, 2019, the district
court denied the motion to dismiss and ordered the Welsh Government to file an
answer. Pablo Star Ltd., 378 F. Supp. 3d at 314. The Welsh Government timely
filed this interlocutory appeal on April 29, 2019.5

4

The procedural history of the case can be traced through a number of opinions
issued by the district court between 2016 and 2018. See, e.g., Pablo Star Ltd. v.
Welsh Gov’t, 170 F. Supp. 3d 597 (S.D.N.Y. 2016); Pablo Star Ltd. v. Welsh Gov’t,
2016 WL 2745849 (S.D.N.Y. 2016); Pablo Star Ltd. v. Tribune Content Agency, LLC,
2017 WL 902140 (S.D.N.Y. 2017); Pablo Star Ltd. v. Welsh Gov’t, 2018 WL 2041715
(S.D.N.Y. 2018).
5

We have appellate jurisdiction under the collateral-order doctrine, which
“allows an immediate appeal from an order denying immunity under the FSIA.”
Kensington Int’l Ltd. v. Itoua, 505 F.3d 147, 153 (2d Cir. 2007) (internal quotation
marks omitted). We review a district court's decision concerning subject matter
jurisdiction under the FSIA for clear error as to factual findings and de novo as to
legal conclusions. Id.
8

08A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page9 of 27

DISCUSSION
I.

The FSIA
The FSIA “provides the sole basis for obtaining jurisdiction over a foreign

state in federal court.” Anglo-Iberia Underwriting Mgmt. v. P.T. Jamsostek, 600 F.3d
171, 174-75 (2d Cir. 2010), quoting Argentine Republic v. Amerada Hess Shipping
Corp., 488 U.S. 428, 439 (1989). “Under the Act, a foreign state is presumptively
immune from the jurisdiction of United States courts; unless a specified exception
applies, a federal court lacks subject-matter jurisdiction over a claim against a
foreign state.” Saudi Arabia v. Nelson, 507 U.S. 349, 355 (1993).
A defendant seeking sovereign immunity bears the burden of establishing
a prima facie case that it is a foreign sovereign. Anglo-Iberia, 600 F.3d at 175. Here,
it is undisputed that the Welsh Government, as a subdivision of the United
Kingdom, is a foreign state within the meaning of the Act, and is presumptively
entitled to sovereign immunity. See Pablo Star, 170 F. Supp. 3d at 602; see also 28
U.S.C. § 1603(a); Government of Wales Act, c. 32, § A1 (“[T]he Welsh
Government ... [is] a permanent part of the United Kingdom’s constitutional
arrangements.”).

9

09A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page10 of 27

Once the defendant makes that showing, the burden shifts to the plaintiff
to make an initial showing that an enumerated exception to sovereign immunity
applies. Anglo-Iberia, 600 F.3d at 175. Determining whether that burden is met
involves a review of the allegations in the complaint and any undisputed facts,
and resolution by the district court of any disputed issues of fact. Id. The district
court may look to evidence outside the pleadings and may hold an evidentiary
hearing, if one is warranted, in determining facts relevant to jurisdiction. Id. Once
the plaintiff has met its initial burden of production, the defendant bears the
burden of proving, by a preponderance of the evidence, that the alleged
exception does not apply. Id. In other words, the ultimate burden of persuasion
remains on the party seeking sovereign immunity. Id.
II.

The Commercial-Activity Exception
The FSIA’s commercial-activity exception abrogates sovereign immunity in

cases in which the action is:
based [i] upon a commercial activity carried on in the
United States by the foreign state; or [ii] upon an act
performed in the United States in connection with a
commercial activity of the foreign state elsewhere; or
[iii] upon an act outside the territory of the United States
in connection with a commercial activity of the foreign
state elsewhere and that act causes a direct effect in the
United States.
10
10A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page11 of 27

28 U.S.C. § 1605(a)(2). In this case, only the first clause of the commercial-activity
exception is at issue.
The FSIA defines “commercial activity” as “either a regular course of
commercial conduct or a particular commercial transaction or act.” Id. § 1603(d).
As the Supreme Court has noted, this definition “leaves the critical term
‘commercial’ largely undefined.” Republic of Argentina v. Weltover, Inc., 504 U.S.
607, 612 (1992). Of particular significance to this case, “[t]he commercial character
of an activity shall be determined by reference to the nature of the course of
conduct or particular transaction or act, rather than by reference to its purpose.”
28 U.S.C. § 1603(d). A “commercial activity carried on in the United States by a
foreign state” is defined as “commercial activity carried on by such state and
having substantial contact with the United States.” Id. § 1603(e).
The district court concluded both that the acts of the Welsh Government on
which the claims in this case are based constituted commercial activity and that
that activity had substantial contact with the United States. The Welsh
Government challenges both conclusions.

11

11A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page12 of 27

III.

Analysis
A.

The Welsh Government Engaged in Commercial Activity.

We begin by identifying the particular conduct on which Pablo Star’s
action is “based” under the FSIA. Nelson, 507 U.S. at 356. For purposes of the
commercial-activity exception, the relevant “activity” on which the claims are
based is the Welsh Government’s use of the photographs in question in
promoting Wales-related tourist activities, specifically, on its wales.com web
page; in the “Welsh in America 2010" booklet, the “Welsh in America” exhibition
available from the Welsh Government in New York, and the “Dylan Thomas
Walking Tour of Greenwich Village, New York” brochure; and in providing the
photographs to media companies for publication in articles about Wales and
Dylan Thomas.
Whether an activity is deemed “commercial” under the FSIA depends on
its “nature” rather than its “purpose,” 28 U.S.C. § 1603(d), where “purpose” is
“the reason why the foreign state engages in the activity” and “nature” is “the
outward form of the conduct that the foreign state performs or agrees to perform,”
Nelson, 507 U.S. at 361 (second emphasis added).

12

12A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page13 of 27

The Supreme Court has elaborated on that standard in two principal cases.
In Republic of Argentina v. Weltover, Inc., the Supreme Court explained that in
applying the nature-versus-purpose analysis, “the question is not whether the
foreign government is acting with a profit motive or instead with the aim of
fulfilling uniquely sovereign objectives. Rather, the issue is whether the
particular actions that the foreign state performs (whatever the motive behind
them) are the type of actions by which a private party engages in ‘trade and traffic
or commerce.’” 504 U.S. at 614 (internal citation omitted) (emphasis in original).
The Weltover Court gave the example that “a foreign government’s issuance of
regulations limiting foreign currency exchange is a sovereign activity, because
such authoritative control of commerce cannot be exercised by a private party;
whereas a contract to buy army boots or even bullets is ‘commercial’ activity,
[notwithstanding that the purchases are designed to support the sovereign
function of national defense,] because private companies can similarly use sales
contracts to acquire goods.” Id. at 614-15. Thus, in Weltover, the Argentine
government’s sale of bonds constituted commercial activity, because borrowing
funds through the bond market is an activity regularly conducted by private
companies as well as by governments, notwithstanding that the funds raised
would be used to support sovereign governmental programs. Id. at 615-17.
13
13A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page14 of 27

In the same vein, the Court stated in Saudi Arabia v. Nelson that a foreign
state engages in commercial activity “where it exercises only those powers that
can also be exercised by private citizens, as distinct from those powers peculiar to
sovereigns.” 507 U.S. at 360 (internal quotation marks omitted). Thus, in that
case, the Kingdom of Saudi Arabia enjoyed immunity from a lawsuit alleging
that the plaintiff was unlawfully detained and tortured in retaliation for
reporting safety violations at the Saudi hospital where he worked. However
reprehensible the conduct alleged, the exercise – including the abuse – of the
police powers of detention and punishment are uniquely sovereign activities. Id.
at 361.
This is a standard more easily stated than applied, however, and its
application may sometimes depend on the level of generality at which the
conduct is viewed. Separating the “nature” from the “purpose” of an activity
may require a nuanced examination of the context of the acts involved. In this
case, for example, the narrowest possible characterization of the challenged
actions — printing and distributing copies of photographs, or “engaging in
copyright infringement” — plainly describes “powers that can [ ] be exercised by
private citizens, as distinct from [ ] powers peculiar to sovereigns.” Nelson, 507
14

14A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page15 of 27

U.S. at 360 (internal quotation marks omitted). Literally anyone can do those
things, and such actions are regularly performed by private parties. But without
some understanding of context, that is not much help in distinguishing sovereign
from commercial conduct. And indeed, such a narrow approach would have
pointed in a different direction in the very case from which the formulation is
drawn. It might be entirely reasonable to characterize the actions to which Nelson
was subjected as “locking someone in a room, depriving him of food, and
severely beating him,” or simply as “kidnapping and aggravated assault” — and
indeed, Nelson so characterized them. Those are activities in which criminals
who are private citizens engage with regrettable frequency, and are not actions
that only the agents of sovereign states can perform. But that would ignore the
context in which the events took place. The involvement of agents of the state
security services was an important part of defining the activity being assessed.6

6

Indeed, in an opinion concurring in the judgment, Justice White suggested that
“had the hospital retaliated against Nelson by hiring thugs to do the job, I
assume the majority—no longer able to describe this conduct as ‘a foreign state's
exercise of the power of its police,’ ante, at [361]—would consent to calling it
‘commercial.’ For, in such circumstances, the state-run hospital would be
operating as any private participant in the marketplace and respondents' action
would be based on the operation by Saudi Arabia’s agents of a commercial
business.” 507 U.S. at 366.
15

15A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page16 of 27

On the other hand, a very broad characterization of the activity that forms
the basis of the claim would tend to conflate the act with its purpose. Here, for
example, the Welsh Government asserts that it was acting to promote Welsh
culture and tourism pursuant to its statutory mandate under the Government of
Wales Act 2006, and thus that it was acting as a sovereign government. That may
be a reasonable way to describe the Welsh Government’s actions here, but that
description characterizes those actions in terms of their broad purposes as much
as their “outward form.” Like the Argentine government in Weltover, the Welsh
Government’s actions here are not undertaken from “a profit motive,” but rather
with the goal of enhancing the image of the country and the prosperity of its
citizens — legitimate purposes for a sovereign to pursue.
Those, however, are the purposes or reasons for the Welsh Government’s
actions, and not what it did to accomplish its goals. The means by which it
pursued its goals was the publication, on-line and in print, of what are essentially
advertising materials. As Pablo Star argues, that is an activity that could be, and
in fact regularly is, performed by private-sector businesses. The district court
agreed, holding that “[t]he Welsh Government’s use of these photos is an
eminently familiar manifestation of the manner in which any number of private
16

16A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page17 of 27

travel agents or guides have been alleged to have used another’s copyrighted
materials to supplement their own products or services.” Pablo Star, 378 F. Supp.
3d at 309-10.
We agree as well. Indeed, even if the broader characterization “promoting
tourism” is used, that does not distinguish the activity from functions regularly
undertaken by private entities. Airlines, travel agents, hotels, operators of theme
parks, and sponsors of arts festivals, to name but a few, regularly endeavor to
promote tourism to particular locations. Nor is that private activity always
limited to the promotion of the particular entity’s own goods or services.
Airlines, travel agents, and hotels commonly promote the entertainment or
cultural opportunities available in particular cities or countries, which they do
not own and from which they do not directly profit. All that distinguishes their
advertising from that of the Welsh Government here is that their ultimate
purpose is indeed profit — the airline hopes that if you are excited by its
television commercial about the pleasures to be had at a destination to which it
flies, you may be motivated to buy a ticket on one of its flights — while the Welsh
Government’s reasons for promoting particular touristic activities is not. But, as
Weltover makes clear, the lack of a profit motive is irrelevant to the determination
17

17A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page18 of 27

of whether the activity is “commercial” for purposes of the FSIA. Weltover, 504
U.S. at 614.
In arguing that “promoting tourism” is inherently sovereign and noncommercial, the Welsh Government relies heavily on our decision in Kato v.
Ishihara, 360 F.3d 106 (2d Cir. 2004). The plaintiff in Kato was a Japanese citizen
employed by the Tokyo Metropolitan Government (“TMG”) in its New York
office. She brought a sexual harassment suit against TMG and the Tokyo
governor, alleging sex discrimination and retaliation in the course of her
employment in violation of Title VII of the Civil Rights Act of 1964. We agreed
with TMG’s argument that it was immune from suit under the FSIA.
TMG performed actions that were superficially similar to those typically
undertaken by private parties. For example, TMG engaged in “product
promotion for Japanese companies, general business development assistance,
participation in trade shows on behalf of the companies to promote those
companies’ products for sale, and leasing office space to those companies for
their business development.” 360 F.3d at 111 (internal quotation marks omitted).
However, this Court found that “[a]lthough a private Japanese business might
engage in these activities on its own behalf—for example, by sending its
18

18A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page19 of 27

representatives to trade shows in the United States to promote its products—such
a business would not typically undertake the promotion of other Japanese
businesses, or the promotion of Japanese business interests in general.” Id. at 112.
Thus, “the fact that a government instrumentality like TMG is engaged in the
promotion of commerce does not mean that the instrumentality is thereby engaged
in commerce.” Id. (emphasis in original).
The Welsh Government seizes on the Court’s language in Kato to argue
that it too was performing quintessentially governmental functions. Specifically,
it says that it was acting pursuant to its statutory authority granted by the
government of the United Kingdom to promote the well-being of Wales,
including by promoting economic development, tourism, and culture abroad.
The Welsh Government takes Kato’s language out of its factual context,
however. First, the Welsh Government here engaged in promotional activities
“on its own behalf,” id. at 112, rather than on behalf of third parties. In addition,
TMG’s actions promoting Japanese business interests abroad were not the
conduct on which Kato’s action was “based.” Instead, Kato’s claimed injury was
based on TMG’s alleged harassing and retaliatory conduct. That activity was a
part of TMG’s personnel practices. Our inquiry in Kato was thus directed to
19

19A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page20 of 27

assessing whether the plaintiff was a bona fide public servant rather than toward
deciding whether activities such as those of the Welsh Government here are
properly characterized as “commercial.”
Nelson established the importance of a sufficient “nexus” between a
defendant’s conduct and the injuries alleged. 507 U.S. at 355. In Nelson, a Saudi
government hospital recruited and hired Nelson as a monitoring systems
engineer. Id. at 351-52. When Nelson discovered and reported safety defects that
endangered patients’ lives to hospital officials and a Saudi government
commission, he was arrested and tortured by government agents. Id. at 352-53. In
evaluating Saudi Arabia’s assertion of sovereign immunity, the Supreme Court
reasoned that, while the Saudi defendants recruited Nelson, signed an
employment contract with him, and subsequently employed him, these activities
(which could be considered commercial) were not the basis for his lawsuit.
Instead, his lawsuit sought damages for defendants’ wrongful arrest,
imprisonment, and torture, and that conduct “fails to qualify as ‘commercial
activity’ within the meaning of the [FSIA].” Id. at 358. Thus, because there was no
sufficient “nexus” between Nelson’s injuries and the government hospital’s
commercial activity, the commercial-activity exception did not apply and Saudi
Arabia was entitled to sovereign immunity.
20
20A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page21 of 27

Similarly, in Kato, the plaintiff’s alleged injuries were not based on TMG’s
promotion of Japanese business interests abroad but on TMG’s alleged harassing
and retaliatory conduct as an employer of civil servants. Indeed, the Kato Court
based its decision in part on the fact that Kato was a civil servant and that the
FSIA’s legislative history identified employment of civil service personnel as an
example of governmental activity. Kato, 360 F.3d at 111, citing H.R. Rep. No. 941487, at 16, reprinted in U.S.C.C.A.N. at 6615. Our statement that “an agency of a
foreign government is not involved in ‘commercial activity’ under the FSIA when
it provides general business development assistance,” 360 F.3d at 114, was thus
in the context of determining whether the plaintiff was properly characterized as
a civil servant. Because the promotion of a country’s commercial activities is a
legitimate function of government, she was.
Pablo Star’s argument does not depend on any claim that the employees of
the Welsh Government who engaged in the challenged activity here were part of
a commercial, rather than governmental, operation. Here, unlike in Nelson and
Kato, Pablo Star’s alleged injuries are based directly on the Welsh Government’s
allegedly commercial conduct, specifically the unauthorized use of photographs
in promotional websites and printed materials advertising tourism related to
21

21A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page22 of 27

Wales. And, as the district court reasoned in its opinion below, private travel
agents, publishers of guidebooks, and airline companies can and do use
photographs to promote tourism to various destinations around the world. If any
of those institutions had used Pablo Star’s copyrighted photos to promote the
Dylan Thomas Walking Tour of Greenwich Village (for which New York Fun
Tours, apparently a for-profit enterprise, charged admission), it would have been
a proper defendant in a copyright infringement action. Every aspect of the Welsh
Government’s conduct that forms the basis of Pablo Star’s claim could have been
done by a private party for commercial gain. Thus, unlike the exercise of state
police power in Nelson, 507 U.S. at 361, there is nothing quintessentially
governmental about using a photograph in a printed brochure or on a web page
or distributing the photograph to newspaper outlets to advertise or promote
travel and tourism to a particular location. The fact that this activity was done by
a government body pursuant to its statutory authority in order to promote
tourism, rather than to make a profit, goes to the activity’s purpose rather than its
“outward form.” Nelson, 507 U.S. at 361. See also Leutwyler v. Office of Her Majesty
Queen Rania Al-Abdullah, 184 F. Supp. 2d 277, 291 (S.D.N.Y. 2001) (“[W]hile the
purpose of publishing the diary may have been governmental (disseminating
22

22A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page23 of 27

information about Jordan and encouraging tourism), the nature of the activity
(publishing and selling books) is clearly commercial.” (emphasis in original)). We
therefore conclude that the activity on which Pablo Star’s claims are based is
commercial activity.
B.

The Welsh Government’s Conduct Had Substantial Contact with
the United States.

Having found that the Welsh Government engaged in commercial activity,
we move on to the second step of the inquiry: whether the commercial activity
was carried on in the United States. To qualify, the commercial activity must
have “substantial contact with the United States.” 28 U.S.C. § 1603(e).
Exactly what constitutes “substantial contact” for purposes of the FSIA is
poorly defined. “Congress left it to the courts to define the contours of
‘substantial contact’ between a foreign state’s commercial activity and the United
States. However, it is clear that Congress intended a tighter nexus than the
‘minimum contacts’ standard for due process.” Shapiro v. Republic of Bolivia, 930
F.2d 1013, 1019 (2d Cir. 1991) (internal citation omitted). In Shapiro, we concluded
that Bolivia’s issuance of promissory notes to a Delaware corporation doing
business principally in New York City, which were then placed in escrow with a

23

23A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page24 of 27

Washington, D.C. law firm, satisfied the “substantial contact” standard. Id. We
stated that “[w]e know of no theory that would cause us to read the FSIA to
allow a foreign state to issue bearer notes to an intermediary in the United States
and then to deny that it was engaged in commercial activity as defined in the
FSIA. The very presence of such highly transferable instruments, whether or not
the initial holder successfully discounts them in the country, suffices to satisfy the
‘substantial contact’ requirement of the statute.” Id.
The district court below held that the substantial contact requirement was
satisfied in this case because it found that the Welsh Government played an
active role in the United States in the development and distribution in New York
of promotional materials that included plaintiffs’ photographs, including by
contracting with private businesses located in New York City to publish, print,
display, and distribute the allegedly infringing materials. Pablo Star, 378 F. Supp.
3d at 313.
The Welsh Government argues that all relevant activity took place in Wales
or the United Kingdom. For example, the Welsh Government’s tourism strategy
and action plan to promote tourism were formulated in Wales and all electronic
storage and distribution of the photographs occurred from computers and
24

24A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page25 of 27

servers located in the United Kingdom. Joint App’x at A-313. In response to the
district court’s emphasis on the fact that it was the “Welsh Government in New
York” that engaged in commercial activity, Pablo Star, 378 F. Supp. 3d at 313
(emphasis in original), the Welsh Government says that all of its offices in the
United States were located in the United Kingdom’s embassies and consulates,
Joint App’x at A-312, and that, under the Vienna Convention on Consular
Relations, having an office at a foreign embassy or consulate does not provide a
proper basis to invoke the commercial-activity exception. See Vienna Convention
on Consular Relations, 596 U.N.T.S. 261 (Apr. 24, 1963), Art. 5(b), Art. 43
(“Consular officers and consular employees shall not be amenable to the
jurisdiction of the judicial or administrative authorities of the receiving State in
respect of acts performed in the exercise of consular functions.”).
We agree with the district court that the Welsh Government’s commercial
activity utilizing Pablo Star’s copyrighted photographs had substantial contact
with the United States. The point here is not whether the Welsh Government
maintained an office in New York, or whether that office was located in a
consulate or a commercial office building. The Welsh Government’s conduct in
New York reached beyond the confines of its consular office. The very title of its
25

25A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page26 of 27

New York campaign was “The Welsh in America” (emphasis added). The
Government provided a 14-panel exhibition on the history of the Welsh in
America for display in American venues. The Welsh Government distributed the
Dylan Thomas photographs to American media companies, which printed stories
containing one or both photographs in local newspapers in cities including
Pittsburgh, Richmond, and Miami. And, most persuasively, the Dylan Thomas
Walking Tour of Greenwich Village was organized by New York Fun Tours in
cooperation with the Welsh Government, and the Welsh Government provided a
map and brochure for the tour (featuring the “Just Married” photograph) that
could have been useful only if distributed for use in New York. See Pablo Star, 378
F. Supp. 3d at 312. Some or all of those materials were printed by New York
companies under contract with the Welsh Government. Taken together, this
evidence clearly demonstrates that the Welsh Government’s commercial activity
had substantial contact with the United States.

26

26A

Case 19-1262, Document 72-1, 06/08/2020, 2856109, Page27 of 27

CONCLUSION
For the reasons stated above, we conclude that Pablo Star’s lawsuit is
“based . . . upon a commercial activity carried on in the United States,” 28 U.S.C.
§ 1605(a)(2), and therefore falls within an exception to the immunity recognized
by the FSIA. We have considered the Welsh Government’s remaining arguments
and have found them to be without merit. We therefore AFFIRM the judgment of
the district court.

27

27A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 1 of 20
APPENDIX B

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
PABLO STAR LTD., et al.,
Plaintiffs,
15-CV-1167 (JPO)
-vOPINION AND ORDER
THE WELSH GOVERNMENT, et al.,
Defendants.

J. PAUL OETKEN, District Judge:
Plaintiffs Pablo Star Ltd. and Pablo Star Media Ltd., two related companies organized
and registered under the laws of Ireland and the United Kingdom, own the copyrights to two
photographs depicting the poet Dylan Thomas. Plaintiffs have sued Defendants the Welsh
Government, Tribune Content Agency, LLC (“TCA”), and certain John Does for having
allegedly infringed their copyrights in these two photographs in violation of the Copyright Act,
17 U.S.C. §§ 101 et seq. (Dkt. No. 99 (“SAC”).) Before the Court now is the Welsh
Government’s motion to dismiss Plaintiffs’ claims asserted against it in the operative Second
Amended Complaint. (Dkt. No. 105.) For the reasons that follow, the motion is denied.
I.

Background
Familiarity with the background of this dispute is presumed based on this Court’s prior

opinions addressing the Welsh Government’s earlier-filed motion to dismiss, see Pablo Star Ltd.
v. Welsh Gov’t, 170 F. Supp. 3d 597 (S.D.N.Y. 2016), Plaintiffs’ motion for reconsideration of
the Court’s opinion granting in part and denying in part that motion to dismiss, see Pablo Star
Ltd. v. Welsh Gov’t, No. 15 Civ. 1167, 2016 WL 2745849 (S.D.N.Y. May 11, 2016), and
Plaintiffs’ motion for leave to file a Second Amended Complaint against the Welsh Government,
see Pablo Star Ltd. v. Welsh Gov’t, No. 15 Civ. 1167, 2018 WL 2041715 (S.D.N.Y. May 1,

1
28A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 2 of 20

2018). The Court details below only those aspects of this case’s facts and procedural history
most relevant to the instant motion.
On February 18, 2015, Plaintiffs commenced this action against the Welsh Government
and various media companies for infringement of Plaintiffs’ copyrights in two photographs
depicting the poet Dylan Thomas. (Dkt. No. 1.) The nub of Plaintiffs’ claims against the Welsh
Government is that it has “published, displayed, distributed, and otherwise used unauthorized
copies of Plaintiff[s’] copyrighted photographs to in [sic] advertisements, publications, and other
promotional materials directed at and specifically targeted towards New York residents,” all with
the purpose of increasing tourism to Wales. (Dkt. No. 1 ¶¶ 11–13; see also Dkt. No. 26 ¶¶ 29–30
(similar allegations in Plaintiffs’ First Amended Complaint).)
By an Opinion and Order dated March 16, 2016, this Court granted the Welsh
Government’s motion to dismiss all claims asserted against it in Plaintiffs’ First Amended
Complaint on the grounds of improper service and improper venue. (Dkt. No. 53.) With respect
to venue, the Court held in relevant part that Plaintiffs had not alleged facts sufficient to justify
venue in this district because they had
not alleged that any of the specific conduct at issue occurred in this district, let
alone a “substantial part” of it. Neither Plaintiffs nor the Welsh Government
reside in the United States. The only concrete infringing materials that Plaintiffs
can identify are materials that were available online. But the fact that an
infringing material is accessible via the internet in a jurisdiction is hardly
sufficient to conclude that this infringement occurred in this district for the
purposes of venue. Indeed, all of the Welsh Government’s relevant conduct—
including the creation and maintenance of the websites at issue—appears to have
occurred abroad. On this basis, the Court cannot conclude that a substantial part
of the events giving rise to this claim occurred in New York.
(Dkt. No. 53 at 16 (internal citations and footnotes omitted).) Plaintiffs then moved for
reconsideration of that decision (Dkt. No. 58), and the Court denied that motion on May 11, 2016
(Dkt. No. 65).
2
29A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 3 of 20

Plaintiffs subsequently moved for leave to replead their allegations against the Welsh
Government (Dkt. No. 73), attaching to their motion a proposed new pleading that is now the
operative Second Amended Complaint (compare Dkt. No. 75-1, with Dkt. No. 99). Defendant
TCA filed an opposition to Plaintiffs’ motion for leave to replead, asserting in substance that
granting Plaintiffs leave to replead would be futile because this district remained an improper
venue for Plaintiffs’ claims against the Welsh Government. (Dkt. No. 78.) The Court disagreed.
By an Opinion and Order dated May 1, 2018, the Court granted Plaintiffs leave to file the Second
Amended Complaint, holding that Plaintiffs’ new “allegations, taken as true, plausibly
establish[ed] that the Welsh Government undertook significant actions in this district that [were]
material to its allegedly unauthorized copying of Plaintiffs’ photographs.” (Dkt. No. 96 at 5.)
Among “Plaintiffs’ factual allegations [relevant to that conclusion] include[d] the following:
The Welsh Government has a permanent presence in New York and maintains
offices in New York City. The Welsh Government created infringing
“promotional materials” such as “advertisements, brochures, pamphlets, [and]
New York City walking tour maps,” which included unauthorized copies of
Plaintiffs’ photographs. In addition, the Welsh Government created display
panels for an exhibition called “Welsh in America,” which made unauthorized use
of Plaintiffs’ photographs. Prior to creating these materials, the Welsh
Government drafted a report detailing its strategies to promote tourism to Wales,
and identified the United States as one of its key target markets.
Moreover, Plaintiffs allege, on information and belief, that “the Welsh
Government distributed and loaned out copies” of the infringing promotional
materials from its offices in New York City, and loaned out and “publicly
displayed the infringing panels of the Welsh in America exhibition in New York
City.”
(Dkt. No. 96 at 4–5 (citing SAC ¶¶ 16, 18, 22–23; 27–29; 32–34; Dkt. Nos. 75-2, 75-3)
(footnotes omitted).) In response to TAC’s contention that the Court had previously rejected
similar arguments when denying Plaintiffs’ motion for reconsideration, the Court explained that
“unlike at the motion-for-reconsideration stage, the Court . . . [was required to] draw all

3
30A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 4 of 20

inferences in favor of Plaintiffs” in connection with their motion to replead, and concluded that
“any deficiencies addressed in the Court’s opinion on reconsideration ha[d] been remedied by
the plausible information-and-belief allegations of the” Second Amended Complaint. (Dkt. No.
96 at 6 n.5.) Finally, the Court also declined to address TAC’s one-sentence suggestion that the
Welsh Government might be immune from suit on the basis of sovereign immunity, explaining
that the “Welsh Government will be free to raise any immunity defense on its own behalf in
response to the SAC.” (Dkt. No. 96 at 7 n.6.)
Plaintiffs filed the operative Second Amended Complaint on May 8, 2018. (Dkt. No. 99.)
The Welsh Government has now filed a motion to dismiss Plaintiffs’ newly repleaded claims
against it pursuant to Federal Rule of Civil Procedure 12(b)(1), asserting that it is immune from
suit on the basis of sovereign immunity. (Dkt. Nos. 105, 106 at 1.)
II.

Legal Standard
The Foreign Sovereign Immunities Act (“FSIA”), 28 U.S.C. §§ 1602 et seq., “is the sole

source for subject matter jurisdiction over any action against a foreign state,” Kensington Int’l
Ltd. v. Itoua, 505 F.3d 147, 154 (2d Cir. 2007) (quoting Cabiri v. Gov’t of the Republic of
Ghana, 165 F.3d 193, 196 (2d Cir. 1999)). The FSIA provides that “a foreign state or an
‘agency or instrumentality of a foreign state[]’ is immune from federal court jurisdiction unless a
specific exception to the FSIA applies.” Anglo-Iberia Underwriting Mgmt. Co. v. P.T.
Jamsostek, 600 F.3d 171, 175 (2d Cir. 2010) (quoting 28 U.S.C. § 1603(b)).
“When [a] defendant claims immunity under the FSIA,” that defendant must first
“present[] a prima facie case that it is a foreign sovereign.” Figueroa v. Ministry of Foreign
Affairs of Swed., 222 F. Supp. 3d 304, 307 (S.D.N.Y. 2016) (second quoting Cargill Int’l S.A. v.
M/T Pavel Dybenko, 991 F.2d 1012, 1016 (2d Cir. 1993)). “Once the defendant presents a prima
facie case that it is a foreign state [within the meaning of the FSIA], ‘the plaintiff [then] has the
4
31A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 5 of 20

burden of going forward with evidence showing that, under exceptions to the FSIA, immunity
should not be granted.’” Kensington, 505 F.3d at 153 (quoting Cabiri, 165 F.3d at 196). Once a
Plaintiff has satisfied this burden, “the defendant must show that the alleged exception does not
apply by a preponderance of the evidence.” Anglo-Iberia, 600 F.3d at 175 (emphasis added)
(internal quotation marks omitted). “The ultimate burden of persuasion remains with the alleged
foreign sovereign.” Kensington, 505 F.3d at 153 (quoting Cabiri, 165 F.3d at 196).
“Determining whether [a plaintiff’s] burden is met involves a review of the allegations in
the complaint, the undisputed facts, if any, placed before the court by the parties, and—if the
plaintiff comes forward with sufficient evidence to carry its burden of production on this issue—
resolution of disputed issues of facts.” Anglo-Iberia, 600 F.3d at 175 (quoting In re Terrorist
Attacks on Sept. 11, 2001, 538 F.3d 71, 80 (2d Cir. 2008)). Accordingly, when considering a
motion to dismiss for lack of subject matter jurisdiction on the basis of sovereign immunity, “the
Court generally must accept the material factual allegations in the complaint as true, but does not
draw all reasonable inferences in the plaintiff’s favor. [And] where jurisdictional facts are
disputed, the Court has the power and the obligation to consider matters outside the pleadings,
such as affidavits, documents, and testimony, to determine whether jurisdiction exists.”
Figueroa, 222 F. Supp. 3d at 307 (internal citations omitted). Finally, because “foreign
sovereign immunity’s basic objective [is] to free a foreign sovereign from suit, . . . court[s]
should normally resolve those factual disputes and reach a decision about immunity as near to
the outset of the case as is reasonably possible.” Bolivarian Republic of Venez. v. Helmerich &
Payne Int’l Drilling Co., 137 S. Ct. 1312, 1317 (2017).

5
32A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 6 of 20

III.

Discussion
A.

Sovereign Immunity

The Welsh Government moves to dismiss Plaintiffs’ claims against it pursuant to Rule
12(b)(1) on the basis of sovereign immunity. (Dkt. Nos. 105, 106 at 1.) In support of its motion,
the Welsh Government submits various exhibits and affidavits. (See, e.g., Dkt. Nos. 106-2–1064, 107–09.) Plaintiffs, in contrast, do not present to the Court any new evidence in opposing the
instant motion.1 (See generally Dkt. No. 119.) Still, as the Court recently explained in granting
Plaintiffs leave to replead, Plaintiffs’ factual allegations in the Second Amended Complaint,
including some of the same allegations that the Court held to be sufficient to establish venue in
this district, are also supported in part by a number of exhibits attached to Plaintiffs’ pleading.
(See Dkt. No. 96 at 4 (citing Dkt. Nos. 75-2, 75-3); see also Dkt. Nos. 99-1–99-14 (exhibits to
Plaintiffs’ Second Amended Complaint).) To the extent that any of Plaintiffs’ factual allegations
in the Second Amended Complaint are both supported by evidence attached to the Second
Amended Complaint and unrebutted by the Welsh Government’s evidence, they are properly
considered in connection with Plaintiffs’ burden of production. See Anglo-Iberia, 600 F.3d at
175. The Court turns now to consider that evidence.

1

Plaintiffs contend that “[i]n an FSIA case,” courts will grant a motion to dismiss for
lack of subjection matter jurisdiction only where a pleading is “wholly insubstantial or
frivolous,” and that in doing so courts “must accept as true all of the factual allegations set out in
plaintiffs’ complaint, draw inferences from those allegations in the light most favorable to
plaintiffs, and construe the complaint liberally.” (Dkt. No. 119 at 4 (citations and internal
quotation marks omitted).) Plaintiffs are incorrect. The legal standard governing the instant
motion to dismiss is that outlined by the Court above. See supra Section II. In fact, the Supreme
Court just two terms ago expressly addressed and rejected the propriety of a legal standard akin
to that articulated by Plaintiffs here. See Bolivarian Republic of Venez., 137 S. Ct. at 1324
(“Simply making a nonfrivolous argument [that an FSIA exception applies] is not sufficient. . . .
If a decision about the matter requires resolution of factual disputes, the court will have to
resolve those disputes.”).
6
33A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 7 of 20

As an initial matter, the Welsh Government has made a prima facie showing that it is a
political subdivision of a foreign state within the meaning of the FSIA. (See Dkt. No. 121 at 2
(citing Gov’t of Wales Act § A1 (“[T]he Welsh Government . . . [is] a permanent part of the
United Kingdom’s constitutional arrangements.”)) 2.) Accordingly, “the burden [now] falls on
[Plaintiffs] to establish by a preponderance of the evidence that an exception under the FSIA
permits jurisdiction over [the Welsh Government].” Swarna v. Al-Awadi, 622 F.3d 123, 143 (2d
Cir. 2010). Plaintiffs contend that three of the general exceptions to foreign sovereign immunity
that are outlined in § 1605(a)(2) of the FSIA permit them to sue the Welsh Government for the
alleged acts of copyright infringement at issue in this suit: (1) the commercial activity exception
(Dkt. No. 119 at 5–11); (2) the noncommercial tort exception (Dkt. No. 119 at 11–17); and (3)
the expropriation exception (Dkt. No. 119 at 17–18). The Court addresses only the commercial
activity exception, concluding both that Plaintiffs have met their burden of production with
respect to the that exception to sovereign immunity, and that the Welsh Government has failed to
demonstrate by a preponderance of the evidence that this exception does not apply here.
Among the FSIA’s “[g]eneral exceptions to the jurisdictional immunity of a foreign
state” is what is commonly referred to as the “commercial activity” exception. 28 U.S.C.
§ 1605(a)(2). This exception provides that:
A foreign state shall not be immune from the jurisdiction of courts of the United
States or of the States in any case . . . in which the action is based [i] upon a
commercial activity carried on in the United States by the foreign state; or [ii]
upon an act performed in the United States in connection with a commercial
activity of the foreign state elsewhere; or [iii] upon an act outside the territory of
the United States in connection with a commercial activity of the foreign state
elsewhere and that act causes a direct effect in the United States.

2

Available at http://www.legislation.gov.uk/ukpga/2006/32/section/A1.
7
34A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 8 of 20

Id. As the text of the statute makes plain, all three prongs of the exception require a plaintiff to
show some form of (1) a “commercial activity” carried on by or of the foreign state (2) a nexus
between that activity and the basis of the plaintiff’s claims, and (3) a geographic connection with
the United States.
The FSIA provides that a “commercial activity” may be “either a regular course of
commercial conduct or a particular commercial transaction or act,” and instructs courts that the
“commercial character of an activity shall be determined by reference to the nature of the course
of conduct or particular transaction or act, rather than by reference to its purpose.” Id. § 1603(d).
In addition, the FSIA defines “commercial activity carried on in the United States by a foreign
state” as a “commercial activity carried on by such state and having substantial contact with the
United States.” Id. § 1603(e). Describing these tautological definitions as somewhat “obtuse,”
the Supreme Court has provided lower courts with some necessary clarification regarding the
meaning of “commercial activity.” See Saudi Arabia v. Nelson, 507 U.S. 349, 358–59 (1993).
Recognizing that the FSIA codified the preexisting “so-called ‘restrictive’ theory of foreign
sovereign immunity,” id. at 359 (quoting Republic of Argentina v. Weltover, Inc., 504 U.S. 607,
612 (1992)), the Supreme Court explained that “a state engages in commercial activity under the
restrictive theory where it exercises only those powers that can also be exercised by private
citizens, as distinct from those powers peculiar to sovereigns,” id. at 360 (internal quotation
marks omitted). In other words, “a foreign state engages in commercial activity for purposes of
the restrictive theory only where it acts ‘in the manner of a private player within’ the market.”
Id. (quoting Weltover, 504 U.S. at 614). Under the “commercial activity” inquiry, it matters “not
whether the foreign government is acting with a profit motive or instead with the aim of fulfilling
uniquely sovereign objectives.” Weltover, 504 U.S. at 614. Instead, courts ask whether “the

8
35A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 9 of 20

particular actions that the foreign state performs (whatever the motive behind them) are the type
of actions by which a private party engages in ‘trade and traffic or commerce.’” Nelson, 507
U.S. at 360–61 (quoting Weltover, 504 U.S. at 614).
Section 1605(a)(2) further provides that in order to be eligible for the commercial activity
exception to the FSIA’s general grant of sovereign immunity, a plaintiff’s claim must also be
“based upon” the relevant “commercial activity,” or, under the second and third prongs of the
exception, based upon an act performed in connection with that commercial activity. 28 U.S.C.
§ 1605(a)(2) (emphasis added). The Supreme Court has explained that determining whether a
plaintiff’s claim is “based upon” a commercial activity requires courts to “look[] to the ‘basis’ or
‘foundation’ for a claim,” or to “the ‘gravamen of the complaint.’” OBB Personenverkehr AG v.
Sachs, 136 S. Ct. 390, 395 (2015) (quoting Nelson, 507 U.S. at 357). Doing so “first requires a
court to ‘identify[] the particular conduct on which the [plaintiff’s] action is “based.”’” Id.
(alterations in original) (quoting Nelson, 507 U.S. at 356). Courts then must consider the
“‘degree of closeness’ [that] exist[s] between the commercial activity and the gravamen of the
plaintiff’s complaint.” Kensington, 505 F.3d at 156 (quoting Garb v. Republic of Poland, 440
F.3d 579, 586 (2d Cir. 2006)). For a claim to be “based upon” a commercial activity, there must
be a “a significant nexus . . . between the commercial activity in this country upon which the
exception is based and a plaintiff’s cause of action.” Id. at 155 (quoting Reiss v. Société Centrale
Du Groupe Des Assurances Nationales, 235 F.3d 738, 747 (2d Cir. 2000)) (omission in original).
This requisite “degree of closeness . . . is considerably greater than common law causation
requirements.” Id. at 156 (internal quotation marks omitted).
Here, the Court begins, as it must, “by identifying the particular conduct on which
[Plaintiffs’] action is ‘based’ for purposes of the [FSIA].” Nelson, 507 U.S. at 356. The Court

9
36A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 10 of 20

not long ago conducted a similar inquiry into “the essence of Plaintiffs’ claims for copyright
infringement,” doing so in the context of considering the propriety of venue for Plaintiffs’ claims
in this district. (Dkt. No. 96 at 3.) The Court at that time described the “essence” of Plaintiffs’
claims in the Second Amended Complaint as consisting of “the Welsh Government’s
unauthorized use of the two photographs as part of its campaign to promote tourism to Wales,”
and more specifically, “the Welsh [G]overnment’s alleged unauthorized copying” of Plaintiffs’
photographs in violation of 17 U.S.C. § 106. (Dkt. No. 96 at 3–4.) The Court sees no reason
why these alleged acts do not also constitute the “‘basis’ or ‘foundation’ for [Plaintiffs’] claim,”
or “the ‘gravamen of [their] complaint,’” for purposes of the FSIA. OBB, 136 S. Ct. at 395
(quoting Nelson, 507 U.S. at 357). Accordingly, the Court determines that the acts that
Plaintiffs’ copyright claims are “based upon” in this case are the Welsh Government’s alleged
unauthorized copying and distribution of Plaintiffs’ copyrighted photographs.
The Court now asks whether Plaintiffs have demonstrated that the Welsh Government’s
alleged acts of copying and distribution qualify as “commercial activit[ies]” within the meaning
of the FSIA. The Court concludes that they do. The exhibits attached to Plaintiffs’ Second
Amended Complaint demonstrate that the types of conduct the Welsh Government is alleged to
have engaged in are “the type[s] of actions by which a private party engages in ‘trade and traffic
or commerce.’” Weltover, 504 U.S. at 614 (quoting Black’s Law Dictionary 270 (6th ed. 1990)).
The copies of Plaintiffs’ photo that are reproduced in Plaintiffs’ exhibits are generally
part of the Welsh Government’s issuance of promotional materials for Welsh-themed activities
and travel. (See, e.g., Dkt. No. 99-1 (“Dylan Thomas Walking Tour of Greenwich Village, New
York” map published by the Welsh Government, which uses one of Plaintiffs’ photographs);
Dkt. No. 99-2 (“Discovering the Welsh in America” article published by the Welsh Government,

10
37A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 11 of 20

which uses one of Plaintiffs’ photographs); Dkt. No. 99-6–99-9 (copies of articles published by
various United States media outlets promoting tourism to Wales and using the same infringing
photographs included as part of the Welsh Government’s publications) 3.) The Welsh
Government’s use of these photos is an eminently familiar manifestation of the manner in which
any number of private travel agents or guides have been alleged to have used another’s
copyrighted materials to supplement their own products or services. See, e.g., Beasley v. John
Wiley & Sons, Inc., 56 F. Supp. 3d 937 (N.D. Ill. 2014) (copyright infringement suit premised on
private publisher’s unauthorized copying and use of plaintiff’s copyrighted pictures of Chicago
in a travel book); Burch v. Nyarko, No. 06 Civ. 7022, 2007 WL 2191615 (S.D.N.Y. July 31,
2007) (Gorenstein, Mag. J.) (copyright infringement suit premised on private publisher’s
unauthorized copying and use of plaintiff’s copyrighted pictures of Ghana on a travel website);
Feder v. Videotrip Corp., 697 F. Supp. 1165 (D. Colo. 1988) (copyright infringement suit
premised on private publisher’s unauthorized copying and use of plaintiff’s copyrighted travel
guides in a travel video). Here too, Plaintiffs’ exhibits confirm that the Welsh Government

3

Plaintiffs allege on information and belief that the Welsh Government provided these
United States news outlets with the infringing copies of Plaintiffs’ photo as part of their efforts to
encourage tourism to Wales. (See, e.g., SAC ¶¶ 47–48.) The contents of these articles
corroborate Plaintiffs’ allegations: The articles not only favorably depict and encourage travel to
Wales, but also link directly to the website for Visit Wales (see, e.g., 99-7 at 6–7), which
according to a Welsh Government official is “an administrative division of the Welsh
Government charged with carrying out the Government’s policy to promote tourism to Wales”
(Dkt. No. 107 ¶ 5). Plaintiffs also attach to their Second Amended Complaint a “Framework
Action Plan” from the Welsh Government in which it resolved to “[r]e-launch websites for US
and German markets providing [them with] tailored content.” (Dkt. No. 99-14 at 6.) A Welsh
official has confirmed that the Government of Wales does license images for purposes of tourism
promotion (Dkt. No. 107 ¶ 8), and the Welsh Government offers no evidence to rebut Plaintiffs’
allegations that the Welsh Government did in fact provide United States news outlets with
infringing copies of Plaintiffs’ photos. The Court concludes that Plaintiffs have produced
evidence sufficient to corroborate their allegations that the United States news articles appended
to the Second Amended Complaint were published in coordination with the Welsh Government.
11
38A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 12 of 20

distributed copies of Plaintiffs’ photos in a form largely indistinguishable from the form in which
private parties also distributed copies of Plaintiffs’ photo. (Compare Dkt. No. 99-2 with Dkt.
Nos. 99-6–99-9.) This evidence confirms that Plaintiffs’ suit against the Welsh Government
arises from the latter’s exercise of “powers that can also be exercised by private citizens, as
distinct from those powers peculiar to sovereigns,” Nelson, 507 U.S. at 360 (internal quotation
marks omitted), and that Plaintiffs’ suit is therefore “based upon . . . commercial activit[ies]”
within the meaning of 28 U.S.C. § 1605(a)(2).
In moving to dismiss Plaintiffs’ Second Amended Complaint, the Welsh Government
points to unrebutted evidence showing that “the Welsh Government did not use the photographs
for profit[,] but [instead used them] to carry out its public mission to encourage economic
development, culture, and tourism in Wales,” evidence the Welsh Government contends
demonstrates that any alleged copying was done in connection with a uniquely sovereign
objective (i.e., promoting tourism) insufficient to constitute “commercial activity.” (See Dkt.
No. 106 at 12–14.) But the Welsh Government’s evidence of the purposes behind its copying
and distributing of Plaintiffs’ photos, however persuasive, is tangential to the Court’s inquiry.
That is because courts considering whether a government’s conduct is a “commercial activity [as
defined by the FSIA] . . . ‘ask not whether the foreign government is acting with a profit motive
or instead with the aim of fulfilling uniquely sovereign objectives[,] but rather whether the
particular actions that the foreign state performs (whatever the motive behind them) are the type
of actions by which a private party engages in trade and traffic or commerce.’” Swarna, 622
F.3d at 147 (quoting Anglo-Iberia, 600 F.3d at 177). Because Plaintiffs’ evidence shows that the
Welsh Government’s acts of copying and distributing Plaintiffs’ photos were of the sort a private

12
39A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 13 of 20

person might also engage in, the Court need not (and indeed must not) inquire further into the
purposes behind that copying.
At least one other court in this district has rejected similar arguments made by foreign
entities seeking to evade copyright claims brought against them pursuant to the FSIA’s
commercial activity exception. In Leutwyler v. Office of Her Majesty Queen Rania Al-Abdullah,
184 F. Supp. 2d 277 (S.D.N.Y. 2001) (Lynch, J.), the court rejected an assertion of sovereign
immunity raised by copyright-infringement defendants who were officials of a Jordanian
governmental body, id. at 290. The Leutwyler defendants were accused of “furnishing photos
taken by [the plaintiff] for use in the Jordan Diary, a publication that ha[d] been sold in the
United States” in order to promote tourism to Jordan. Id. at 283, 291. Declining to consider the
Jordanian defendants’ alleged purposes of encouraging tourism in selling copies of the “diary,”
Judge Lynch explained that even if “the purpose of publishing the diary may have been
governmental (disseminating information about Jordan and encouraging tourism), the nature of
the activity (publishing and selling books) is clearly commercial.” Id. Accordingly, the court
concluded that the plaintiff “had sustained his burden of demonstrating that the [otherwiseimmune Jordanian defendants had] engaged in certain ‘commercial activity,’ as that term is
defined in § 1603(e), that could give rise to subject matter jurisdiction under the FSIA.” Id. For
the reasons explored above, this Court similarly concludes that the Welsh Government’s alleged
copying and distribution of Plaintiffs’ copyrighted photos in connection with its promotional
materials was a “commercial activity” as that term is used in the context of the FSIA—
irrespective of the purposes underlying the Welsh Government’s copying of those photos.
Finally, even with Plaintiffs having shown that their suit is “based upon a commercial
activity carried on . . . by the” Welsh Government, Plaintiffs still must show that this conduct

13
40A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 14 of 20

was “carried on in the United States” in order to overcome the Welsh Government’s assertion of
sovereign immunity. 4 28 U.S.C. § 1605(a)(2) (emphasis added). To do so, Plaintiffs are
required to produce evidence showing that the Welsh Government’s alleged commercial
activities had “substantial contact with the United States.” 28 U.S.C. § 1603(e).
In granting Plaintiffs leave to replead, the Court concluded that Plaintiffs’ allegations,
“taken as true, plausibly establish[ed] that the Welsh Government undertook significant actions
in this district that are material to its allegedly unauthorized copying of Plaintiffs’ photographs.”
(Dkt. No. 96 at 5.) But unlike at the motion-to-replead stage, the Court can no longer “draw all
reasonable inferences in [Plaintiffs’] favor” in connection with the instant Rule 12(b)(1) motion
to dismiss. Figueroa, 222 F. Supp. 3d at 307. Instead, because “jurisdictional facts are [now]
disputed, the Court has the power and the obligation to consider matters outside the pleadings,
such as affidavits, documents, and testimony, to determine whether jurisdiction exists.” Id.
Accordingly, the Court considers the extent to which the Second Amended Complaint’s attached
exhibits are sufficient to carry Plaintiffs’ evidentiary burden of showing that the Welsh
Government’s commercial activities were “carried on in the United States,” 28 U.S.C.
§ 1605(a)(2), particularly in light of the evidence now presented by the Welsh Government.
The Court concludes that Plaintiffs’ evidence is sufficient to carry their burden. Most
relevant to the Court’s conclusion in this regard are the exhibits attached to Plaintiffs’ Second

4

Alternatively, Plaintiffs could make a showing under the statute’s second and third
prongs that their suit is “based . . . upon an act performed in the United States in connection with
a commercial activity of the foreign state elsewhere,” or “upon an act outside the territory of the
United States in connection with a commercial activity of the foreign state elsewhere and that act
causes a direct effect in the United States.” 28 U.S.C. § 1605(a)(2). But as the Court concludes
that Plaintiffs have met their burden of showing that the commercial activities upon which their
action is based were “carried on in the United States by the” Welsh Government, id., the Court
need not address these alternative bases for rejecting the Welsh Government’s assertion of
sovereign immunity.
14
41A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 15 of 20

Amended Complaint in which the Welsh Government itself represents that at least some of the
infringing materials at issue in this suit were “developed by the Welsh Government in New
York” and were available to order “for distribution free-of-charge . . . from the Welsh
Government in New York.” (See Dkt. No. 99-2 at 2–3.) Buttressing this conclusion is Plaintiffs’
evidence showing that some of the Welsh Government’s infringing materials were also published
in the United States by United States news outlets in furtherance of the Welsh Government’s
attempts to promote tourism to Wales. (Dkt. Nos. 99-6–99-9.)
The most persuasive evidence submitted by the Welsh Government in support of its
attempts to rebut this conclusion is the affidavit of Rob Holt, the Deputy Director of Tourism
Development and Major Events of the Department of Economy, Skills and Natural Resources for
the Welsh Government. 5 (Dkt. No. 107 ¶ 2.) Holt confirms that the Welsh Government does
maintain an office in New York. (Dkt. No. 107 ¶ 3.) But Holt represents that the Welsh
Government’s activities in furtherance of its promotion of tourism and culture are conducted
entirely from Wales (Dkt. No. 107 ¶ 6), and that the computer servers that host the webpages
appended to Plaintiffs’ Second Amended Complaint are also located in Wales (Dkt. No. 107 ¶ 7;
see also Dkt. No. 99-4). Holt further represents that the Welsh Government never offered copies

5

The other evidence the Welsh Government submits in disputing the applicability of the
commercial activity exception is irrelevant to the Court’s disposition of this question. The
Welsh Government’s remaining evidence relates either to the locus of Plaintiffs’ alleged injury
(see, e.g., Dkt. No. 106-4), or to the purposes underlying the Welsh Government’s promotion of
tourism (see, e.g., Dkt. Nos. 106-2–106-3, 107 at 4–31). The former category of evidence would
be relevant to only the tortious act exception to the FSIA’s general grant of sovereign immunity,
see 18 U.S.C. § 1605(a)(5), and, for reasons already explored, the latter category of evidence
does not shed any light on the commercial character of the Welsh Government’s activities,
because such a character “shall be determined by reference to the nature of the course of conduct
or particular transaction or act, rather than by reference to its purpose,” id. § 1603(d). Given that
all that is left for the Court to determine is the question of whether this “action is based upon
commercial activity carried on in the United States by a foreign state,” id. § 1605(a)(2)
(emphasis added), the Court need consider these categories of evidence no further.
15
42A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 16 of 20

of Plaintiffs’ photos for sale or distributed them for profit, and that the Welsh Government
expressly forbade its licensees from using Plaintiffs’ photographs for “promotion of non-tourism
related, non-inward investment related or commercial products.” (Dkt. No. 107 ¶¶ 8–9; see also
Dkt. No. 107 at 32.)
Many of Holt’s representations are immaterial to the Court’s inquiry at this stage: It does
not matter whether Wales distributed copies of the photograph for sale or for profit, or only for
purposes of promoting tourism. Instead, it matters only where the relevant copies of Plaintiffs’
photos were made and distributed. In that respect, Holt’s affidavit is conspicuous for what it
fails to say. This is particularly true with respect to Holt’s failure to call into questions Plaintiffs’
allegations regarding some of the particular activities the “Welsh Government has engaged in
and undertaken . . . in this District,” which is of course located in the United States. (See Dkt.
No. 99 ¶¶ 22–25.) As already discussed, Plaintiffs support these allegations with documentary
evidence in the form of a walking tour mapped onto New York City streets (Dkt. No. 99-1), a
map that would presumably be useful only if distributed in a manner that had “substantial contact
with the United States,” 28 U.S.C. 1603(e). These allegations are further supported by an exhibit
consisting of a webpage published by the Welsh Government that includes copies of Plaintiffs’
photos alongside an offer of sale of tickets to “the Official Dylan Thomas Walking Tour of New
York,” a tour the Welsh Government then describes as “a collaboration of the Welsh
Government in New York and the family of Dylan Thomas.” (Dkt. No. 99-2 (emphasis added).)
In addition, that website explains that copies of the infringing materials are available to order
“for distribution free-of-charge . . . from the Welsh Government in New York.” (Id. (emphasis
added).) Finally, that same website also confirms that the “Dylan Thomas Walking Tour of
Greenwich Village” that is attached to Plaintiffs’ Second Amended Complaint (Dkt. No. 99-1)

16
43A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 17 of 20

“was [also] developed by the Welsh Assembly Government in New York” (Dkt. No. 99-2 at 2
(emphasis added)).
Holt’s affidavit fails to rebut what the exhibits to Plaintiffs’ Second Amended Complaint
persuasively demonstrate: that “the Welsh Government in New York” played an active role in the
development and distribution of the promotional materials which included copies of Plaintiffs’
photographs. (Id.) Moreover, Plaintiffs’ other exhibits also corroborate Plaintiffs’ allegation
that “the Welsh Government contracted with private businesses located in New York City to
publish, print, display, and distribute the Infringing Promotional Materials, including the
infringing walk tour maps and infringing Welsh in America display panels.” (Dkt. No. 99 ¶ 25;
see also, e.g., Dkt. Nos. 99-6–99-9 (evidence of Welsh Government’s coordination with other
United States news outlets).) Taken together, all of this evidence persuasively demonstrates that
the Welsh Government’s “commercial activity . . . [had] substantial contact with the United
States.” 28 U.S.C. § 1603(e).
In summary, the Court concludes that Plaintiffs have produced evidence that establishes
that their claims are “based upon a commercial activity carried on in the United States by [a]
foreign state,” 28 U.S.C. §1605(a)(2), and that the Welsh Government has not carried its burden
of “show[ing] that the alleged [commercial activity] exception does not apply [to its conduct] by
a preponderance of the evidence.” Anglo-Iberia, 600 F.3d at 175.
B.

The Welsh Government’s Remaining Contentions
1.

International Comity

The Welsh Government briefly suggests that the doctrine of international comity calls for
the dismissal of Plaintiffs’ claims. (See Dkt. No. 106 at 14.)
The Second Circuit has described the doctrine of comity as “‘amorphous’ and ‘fuzzy,’”
and it has counseled that “even where the doctrine clearly applies[,] it ‘is not an imperative
17
44A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 18 of 20

obligation of courts but rather is a discretionary rule of practice, convenience, and expediency.’”
Royal and Sun All. Ins. Co. of Can. v. Century Int’l Arms, Inc., 466 F.3d 88, 92 (2d Cir. 2006)
(quoting JP Morgan Chase Bank v. Altos Hornos De Mexico, S.A. DE C.V., 412 F.3d 418, 423
(2d Cir. 2005)). Among other things, the rule of “comity requires that the parties and issues in
both litigations [be] the same or sufficiently similar, such that the doctrine of res judicata can be
asserted.” Herbstein v. Bruetman, 743 F. Supp. 184, 189 (S.D.N.Y. 1990). “[S]ince comity is an
affirmative defense, [the party invoking comity] carrie[s] the burden of proving that comity [is]
appropriate.” Allstate Life Ins. Co. v. Linter Grp. Ltd., 994 F.2d 996, 999 (2d Cir. 1993).
In support of its suggestion that comity should dictate the outcome of the parties’ dispute
here, the Welsh Government submits to the Court a copy of a judgment issued by an Irish court
that dismissed some claims raised by Pablo Star Media Ltd. against the Welsh Government. (See
Dkt. No. 107 at 33.) But it is entirely unclear from that Irish judgment whether Pablo Star Ltd.
was also a party to that suit, or whether Plaintiffs’ claims failed because of a jurisdictional bar
sufficiently similar to that at issue here to warrant res judicata. (Id.; see also Dkt. No. 107 at 41
(suggesting the possibility of Plaintiffs obtaining jurisdiction for their claims against the Welsh
Government in another United Kingdom court).) The Welsh Government’s passing suggestion
that international comity warrants dismissal of Plaintiffs’ claims before this Court is insufficient
to carry its “burden of proving that comity [is] appropriate” in this case. Allstate Life Ins. Co.,
994 F.2d at 999.
2.

Pablo Star Media Ltd.’s Dissolution

The Welsh Government presents for the first time in its reply brief evidence
demonstrating that one of the Plaintiffs, namely Pablo Star Media Ltd., has been dissolved and
may lack standing to proceed in this matter. (Dkt. Nos. 121 at 1, 121-1 ¶ 4, 121-1 at 3–4.) The
Court notes that this evidence does nothing to rebut the standing of at least one Plaintiff to
18
45A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 19 of 20

proceed in this action. (See Dkt. No. 99 ¶¶ 9–10 (alleging that the action’s other Plaintiff, Pablo
Star Ltd., retains an independent right to pursue claims at issue in this suit).) Because “the
presence of one party with standing is sufficient to satisfy Article III’s case-or-controversy
requirement,” Rumsfeld v. Forum for Academic & Institutional Rights, Inc. 547 U.S. 47, 52 n.2
(2006), and because courts “ordinarily will not consider issues raised for the first time in a reply
brief,” McBride v. BIC Consumer Prod. Mfg. Co., 583 F.3d 92, 96 (2d Cir. 2009), the Court
declines to address the Welsh Government’s belated contention regarding Pablo Star Media
Ltd.’s dissolution. The Welsh Government is free to raise this issue again at a later stage of this
case.
3.

Plaintiffs’ Berne Convention Claims

Finally, the Welsh Government moves pursuant to Federal Rule of Civil Procedure
12(b)(6) to dismiss all of Plaintiffs’ claims brought under the Berne Convention. (Dkt. No. 106
at 1, 16–17.) However, Plaintiffs disclaim any attempt to state independent claims under the
Berne Convention, and explain that their allegations regarding the Berne Convention are relevant
only to their attempts to demonstrate a violation of international law sufficient to trigger the
expropriation exception to the FSIA, 28 U.S.C. § 1605(a)(3). (Dkt. No. 119 at 17–18; see also
SAC ¶ 102.) Because Plaintiffs have disclaimed any attempt to state a claim in this action under
the Berne Convention, the Welsh Government’s Rule 12(b)(6) motion to dismiss Plaintiffs’
claims brought under the Berne Convention is denied as moot.

19
46A

Case 1:15-cv-01167-JPO Document 125 Filed 03/29/19 Page 20 of 20

IV.

Conclusion
For the foregoing reasons, the Welsh Government’s motion to dismiss is DENIED. The

Welsh Government is directed to file an answer to the Second Amended Complaint within 21
days of the date of this Opinion.
The Clerk of Court is directed to close the motion at Docket Number 105.
SO ORDERED.
Dated: March 29, 2019
New York, New York
____________________________________
J. PAUL OETKEN
United States District Judge

20
47A

